THIRD JUDICIAL CIRCUIT COURT CRIMINAL DIVISION
COUNTY OF WAY ME
STAr?E OF MICHIG AN

STATE OF MICHIGAN
V

HON. KEVIN J.COX
Case No. 1986-006219-01-FH
Case No. 1986-006250-01-FH

Eric M. Dowdy

OPINION ANT) ORDER DENYING MOTION FOR RELIEF FROM
JUDGMENT
At a session of Court held at the Frank 1 durphy Hall of Justice
in the City of Detroit, Wayne Co mty, Michigan
on: 1/11/2018
This matter is before the Court on Defendant’s motion for relief from judgment
pursuant to MCR 6.500 et seq. The Court hafi reviewed the motion and being
otherwise advised in the premi ses it is orde red that Defendant’s motion is
DENIED.
BACKGROUND
On August 15, 1986, Defendant pleaded guilty to two counts of Second Degree
Murder and two counts of Felony Firearm. Oil October 13, 1988 the Michigan
Court of Appeals affirmed the conviction and sentence (docket number 104359). On
April 25, 1989 the Michigan Suj reme Court denied Defendant’s application for
leave to appeal the decision of the Court of Appeals (docket number 84502).
Defendant filed this motion for relief from judgment, Defendant argues that he
was denied a “fair trial” when he 1 vas re-sentenced due to a lack of “subject matter
jurisdiction,” ineffective assistarce of triad counsel, ineffective assistance of
appellate counsel, and his Due Process rights were violated when he was
resentenced without the proper “sdbject matter jurisdiction.”
ANALYSIS
The court notes that although Defendant charactsrizes the motion as “Motion from
Relief from Judgment under MCR 2.612(C)(1)(d)” the Court is not bound by the

APPENDIX A

choice of labels on a motion. John iton v. Livonia 177.Mich App 200, 208 (1989).
MCR 6.500 et seq establishes the exclusive proce lures for pursing post appellate
relief from a criminal conviction and sentence. . VICR 6.501. The court will onlyconsider this Motion under MCR 6.500 et seq.
This Court’s review of Defendant’s motion for relilef from judgment is governed, in
part, by MCR 6.508. Under that rule, a defendant has the burden of establishing,
that he is entitled to the relief requested. MCR 6.508(D). Moreover, a court may
not grant relief based on grounds “which could haje been raised on appeal from the
conviction and sentence . . . unless the defendant demonstrates good cause [for
failing to raise the issues on appeal or in a prior ijiotion] . . . and actual prejudice.”
MCR 6.508(D)(3)(a)-(b), MCR 6.5 08 provides that the court has discretion to
determine whether an evidentiary hearing is necessary. MCR 6.508(B). Based on
the nature of Defendant’s allegations and the Couijt’s review of the record, the Court
determines that an evidentiary hearing is not nece ssary.
Defendant asserts that he is entitl ed to relief from judgment because trial counsel
was ineffective. A defendant is entitled to effective assistance of counsel. People v
LeBlanc, 465 Mich 575, 578; 640 NW2d 246 (2002). However, Defendant’s claims
could have been brought forward on direct appeal. And in fact, Defendant did
unsuccessfully raise claims of ineffective assistance of trial counsel on appeal, albeit
regarding other issues. Under M1 ^R 6.508(D), Defendant must demonstrate good
cause and actual prejudice regarding these claims
Defendant asserts that he has gooc. cause for failing to raise these particular claims
of ineffective assistance of counsel; ireviously. He indicates that he did not raise the
claims on appeal because of hreffe itive assistance of appellate counsel. Ineffective
assistance of appellate counsel can constitute good cause under MCR 6.508. People
v Kimble, 470 Mich 305, 314; 684 h W2d 669 (2004).
There is a presumption that appellate counsel’s decisions regarding what issues to
raise on appeal “constituted sound strategy.” Pecple v Uphaus, 278 Mich App 174,
186; 748 NW2d 899 (2008). An “a opellate counsel’s decision to winnow out weaker
arguments and focus on those mo re likely to prevail is not evidence of ineffective
assistance.” People v Reed, 449 A lich 375, 391; 535 NW2d 496 (1995). Similarly,
appellate counsel’s decision not ;o pursue eveiy non-frivolous claim cannot be
deemed constitutionally deficient. Id.

In order to demonstrate good cau se based on cliims that appellate counsel was
ineffective for failing to argue trijal counsel’s ineffective assistance, a defendant
must show that “appellate counsel’:; performance fell below an objective standard of
reasonableness and was constitut .onally deficient.” Reed, 449 Mich at 390. A
defendant must also “show that [tr.al] counsel’s performance fell below an objective
standard of reasonableness, anc that the representation so prejudiced the
defendant as to deprive him of a fair trial.” Id. “While not insurmountable, it is
clear that this burden is highly demanding.” Id. The Court must determine
whether appellate counsel’s decision—not to raise the issues Defendant now
raises—fell below the standard or reasonableness. In order to do this, the Court
will first examine whether trial counsel was ineffective, such that Defendant’s
current claims should have been ra sed on appeal.
In determining whether trial comsel’s performance was ineffective, the Court
applies the test set forth in Strickland v Washington, 446 US 668; 100 S Ct 1932; 64
L Ed 2d 593 (1984).
First, the defendant must show that counsel’s performance was
deficient. This requires sho wing that counsel made errors so
serious that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment. Second, the
defendant must show that t ie deficient performance prejudiced
the defense. This requires showing that counsel's errors were so
serious as to deprive the de: endant of a fair trial, a trial whose
result is reliable.
Strickland, 466 US at 687. In showing deficien ; performance, a defendant must
demonstrate that counsel’s “performance was below an objective standard of
reasonableness under professional norms.” People v Odom, 276 Mich App 407, 415;
740 NW2d 557 (2007). In order tjo show prejudice, a “defendant must show that
there is a reasonable probability that, but for comsel’s unprofessional errors, the
result of the proceeding would ha ve been different. A reasonable probability is a
probability sufficient to undermine confidence in i he outcome.” Strickland, 466 US
at 694.
“Judicial scrutiny of counsel’s performance must be highly deferential. ... A fair
assessment of attorney performanc e requires that every effort be made to eliminate
the distorting effects of hindsighi to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from counsel’s perspective at the

time.” Id. at 689. “Defense counsel is given wide discretion in matters of trial
strategy because many calculated risks may be necessary in order to win difficult
cases. There is therefore a strong presumption of effective counsel when it comes to
issues of trial strategy.” Odom, 276 Mich App at 415. “[A] court hearing an
ineffectiveness claim must consider the totality of the evidence before the judge or
jury.” Strickland, 446 US at 695.
With this framework in mind, the Court will consider each of Defendant’s claims to
determine whether it was unreasonable for appellate counsel not to raise these
claims, and whether, as a result, Defendant has demonstrated good cause.
Defendant's asserts that he was resentenced on September 4, 1987 without his
presence and his due process rights were violated. The courtroom tra_nscHpts
indicate that Defendant’s counsel did motion the trial court to resentence
Defendant, but the motion was denied. Competent counsel would not ask an
appellate court to address this issue as Defendant faced no actual prejudice—Thus,
Defendant’s sentence was never modified bv the court and any contention that
Defendant’s counsel was ineffective or the court lack subject matter jurisdiction to
resentence Defendant is moot.
sy

-

—

■

“*

—-

~~

L.

Defendant also argues that his trial counsel asked the court at sentencing to
sentence Defendant to a tarm nf “Life” rather than a specified time, period,
constituting “abandonment” to Defendant and ineffective assistance of counsel. The
court rejected the request and sp.ntancftd PAfp-ndant to 30-45 years in the Michigan
Department of Corrections. Again, competent counsel would not ask an appellate
court to address this issue as Defendant faced no actual prejudice. Thus, the Court
does not find that Defendant has demonstrated actual prejudice as Defendant was
still sentenced to a defined period of incarceration.
ORDER
For the reasons stated above, Defendant’s request,for relief from judgment based on
claims of ineffective assistance of counsel is DENIED.

' A TRUE COPY
l - CATHY M. GARRETT
*•
BY.

WAYN EjQOOMTY CLERK
DEPUTY CLER£

Hon. Kevin J. Cox

Court of Appeals, State of Michigan
ORDER
Karen M. Fort Hood
Presiding Judge

People of MI v Eric Miguel Dowdy
Docket No.

343551

Kirsten Frank Kelly

LC No.

86-006219-01-FC; 86-006250-01-FH

Michael J. Riordan
Judges

The Court orders that the delayed application for leave to appeal is DENIED because
defendant has failed to establish that the trial court erred in denying the motion for relief from judgment.
The motion to waive fees is GRANTED and fees are WAIVED for this case only.

/

l/T*
Presiding Judge

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

MAY 2 4 2018
Date

APPENDIX B

Court of Appeals, State of Michigan
ORDER
Karen M. Fort Hood
Presiding Judge

People of MI v Eric Miguel Dowdy
Docket No.

343551

Kirsten Frank Kelly

LC No.

86-006218-01-FC; 86-006250-01-FH

Michael J. Riordan
Judges

The Court orders that the motion for reconsideration is DENIED.
!

//

y

/

/•'

/
L
Presiding Judge
■/

A true copy entered and certified by Jerome W. Zimmer Jr.. Chief Clerk. on

[f]

\V

JUN 2 2 2018
Date

APPENDIX C

Chie

Michigan Supreme Court
Lansing, Michigan
October 11, 2019

Bridget M. McCoimack,
ChiefJustice

158098

David F. Viviano,
ChiefJustice Pro Tem

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

• Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

SC: 158098
COA: 343551
Wayne CC: 86-006219-FC;
86-006250-FH

ERIC MIGUEL DOWDY,
Defendant-Appellant.
By order of February 4, 2019, the prosecuting attorney was directed to answer the
application for leave to appeal the May 24, 2018 order of the Court of Appeals. On order
of the Court, the answer having been received, the application for leave to appeal is again
considered, and it is DENIED, because the defendant has failed to meet the burden of
establishing entitlement to relief under MCR 6.508(D).
Cavanagh, J. (concurring).
I concur in the denial of leave to appeal in this case, but write separately to
highlight particular circumstances I believe should be considered in future Parole Board
decisions.
In 1987 defendant was sentenced for two second-degree murder convictions to
terms of 30 to 45 years' imprisonment, to be served concurrently to each other and
consecutively to 2-year sentences for two felony-firearm convictions. At that time,
conventional thinking was that parole would be achieved earlier from a parolable life
sentence than from the effective 32-year minimum term defendant had received.
Defendant's attorney filed a motion for resentencing seeking a parolable life sentence.
Indeed, defendant had a sentencing agreement to that effect in one of his cases. The trial
court granted the motion, converting defendant’s sentence to parolable’Tife.....................
However, the Parole Board’s practices changed before it considered defendant's
case. See Yantus, Sentence Creep: Increasing Penalties in Michigan and the Need for

APPENDIX D

i

!

t

2
Sentencing Reform, 47 U Mich J L Reform 645, 690 (Spring 2014) (noting that,
[although many sentencing judges imposed a life sentence before 1992 with the
assumption that the inmate would be eligible for parole, and presumptively released on
parole after twelve to twenty years, [after 1992] this was no longer the state’s practice”).
Thirty-two years later, after his original 32-year minimum sentence would have ended,
defendant remains in prison. The Parole Board has many factors to weigh in each of its
decisions, to be sure. But when the Parole Board next considers this case, it might also
consider that the trial court may have intended this defendant to have been paroled
already.

f

fS7

§

yy7

f Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 11,2019

p!008.

Clerk

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PageID.76 Filed 11/09/20 Page 1 of 17

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

Eric Miguel Dowdy,
Petitioner,

Case No. 20-10744
Judith E. Levy
United States District Judge

v.

Shane Jackson,
Respondent.

OPINION AND ORDER SUMMARILY DENYING PETITION FOR
WRIT OF HABEAS CORPUS, DECLINING TO ISSUE A
CERTIFICATE OF APPEALABILITY AND DENYING LEAVE TO
APPEAL IN FORMA PAUPERIS
Eric Miguel Dowdy, (“Petitioner”), confined at the Brooks
Correctional Facility in Muskegon Heights, Michigan, seeks a writ of
habeas corpus pursuant to 28 U.S.C. § 2254. In his pro se application,
Petitioner challenges his 1987 conviction for second-degree murder,
Mich. Comp. Laws Ann. § 750.317, and felony-firearm, his 1987
conviction for second-degree murder, Mich. Comp. Laws Ann. § 750.227b.
The Court summarily dismisses the petition for writ of habeas
corpus because it was not timely filed in accordance with the statute of

APPENDIX E

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PageID.77 Filed 11/09/20 Page 2 of 17

limitations contained in 28 U.S.C. § 2244 (d)(1) and the late-filed petition
cannot be saved by equitable or statutory tolling.
I. Background
Petitioner pleaded guilty to second-degree murder and felonyfirearm.1 On February 3,1987, Petitioner was sentenced to thirty to forty
five years in prison on the second-degree murder conviction and received
a two year consecutive sentence on the felony-firearm conviction.
Petitioner’s appellate counsel filed a motion for Petitioner to be re­
sentenced to a parolable life sentence.2 Petitioner argues that this was
done without his knowledge. On September 4, 1987, Petitioner was re­
sentenced to a parolable life sentence. (ECF No. 1, PagelD. 67).

1 Petitioner was convicted of second-degree murder and felony-firearm in
another case. People v. Dowdy, 1986-006250-01-FH (Wayne Cty. Cir. Ct.). This
conviction is not challenged in his petition.
2 Justice Cavanagh, in her concurrence in Petitioner’s post-conviction appeal,
explains appellate counsel’s motion for re-sentencing by noting, “At that time,
conventional thinking was that parole would be achieved earlier from a parolable life
sentence than from the effective 32-year minimum term defendant had received.
Defendant’s attorney filed a motion for resentencing seeking a parolable life sentence.
Indeed, defendant had a sentencing agreement to that effect in one of his cases. The
trial court granted the motion, converting defendant’s sentence to parolable life.”
People v. Dowdy, 504 Mich. 977 (2019) (Mem.) (Cavanagh, J., concurring),
reconsideration denied, 937 N.W.2d 680 (Mich. 2020).

2

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.78 Filed 11/09/20 Page 3 of 17

The Michigan Court of Appeals affirmed Petitioner’s conviction.
People v. Dowdy, No. 104359 (Mich. Ct. App. Oct. 13, 1988). Direct review
of Petitioner’s conviction ended on April 25, 1989, when the Michigan
Supreme Court denied Petitioner leave to appeal. People v. Dowdy, No.
84502, 1989 Mich. LEXIS 607 (Mich. Sup. Ct. Apr. 25, 1989).
On October 3, 2017, Petitioner filed a motion for relief from
judgment pursuant to Mich. Ct. R. 2.612(C)(1)(d) with the trial court.3
The trial judge construed the motion as a post-conviction motion for relief
from judgment brought pursuant to Mich. Ct. R. 6.500, et. seq., and
denied relief. People v. Dowdy, Nos. 1986-006219-01-FH, 1986-00625001-FH (Wayne Cty. Cir. Ct., Jan. 11, 2018). The Michigan Court of
Appeals denied Petitioner leave to appeal. People v. Dowdy, No. 343551
(Mich. Ct. App. May 24, 2018). The Michigan Supreme Court denied
Petitioner leave to appeal. People v. Dowdy, 504 Mich. 977 (2019)

3 The Court obtained this date from the Wayne County Circuit Court docket.
https://cmsp ublic. 3rdcc.org/CaseDetail. aspx?CaseID=3639525. Public records and
government documents, including those available from reliable sources on the
Internet, are subject to judicial notice. See Daniel u. Hagel, 17 F. Supp. 3d 680, 681,
n. 1 (E.D. Mich. 2014); United States ex. rel. Dingle u. BioPort Corp., 270 F. Supp. 2d
968, 972 (W.D. Mich. 2003).

3

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.79 Filed 11/09/20 Page 4 of 17

(Cavanagh, J., concurring), reconsideration denied, 937 N.W.2d 680
(Mich. 2020).
The petition is signed and dated March 16, 2020.4
II. Discussion
The Antiterrorism and Effective Death Penalty Act (“AEDPA”),
which was signed into law on April 24, 1996, amended the habeas corpus
statute in several respects, one of which was to mandate a statute of
limitations for habeas actions. 28 U.S.C. § 2244(d) imposes a one-year
statute of limitations upon petitions for habeas relief:
(1) A 1-year period of limitation shall apply to an application
for a writ of habeas corpus by a person in custody pursuant to
the judgment of a State court. The limitation period shall run
from the latest of~
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws
of the United States is removed if the applicant was prevented
from filing by such State action;

4 Under the prison mailbox rule, this Court will assume that Petitioner actually
filed his habeas petition on March 16, 2020, the date that it was signed and dated.
See Towns u. U.S., 190 F. 3d 468, 469 (6th Cir. 1999).

4

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.80 Filed 11/09/20 Page 5 of 17

(C) the date on which the constitutional right asserted was
originally recognized by the Supreme Court if the right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or
claims presented could have been discovered through the
exercise of due diligence.
Although not jurisdictional, the AEDPA’s one-year limitations
period “effectively bars relief absent a showing that the petition’s
untimeliness should be excused based on equitable tolling and actual
innocence.” See Akrawi v. Booker, 572 F. 3d 252, 260 (6th Cir. 2009). A
petition for writ of habeas corpus must be dismissed where it has not
been filed within the one-year statute of limitations. See Holloway v.
Jones, 166 F. Supp. 2d 1185, 1187 (E.D. Mich. 2001).
Rule 4 of the Rules Governing Section 2254 Cases in the United
States District Courts “provides that district courts 'must promptly
examine’ state prisoner habeas petitions and must dismiss the petition
‘[i]f it plainly appears ... that the petitioner is not entitled to relief.”’ Day
v. McDonough, 547 U.S. 198, 207 (2006). This Court must determine
whether the one-year statute of limitations in AEDPA, see 28 U.S.C. §
2244(d)(1), bars substantive review of Petitioner’s claims.

5

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.81 Filed 11/09/20 Page 6 of 17

This Court is “permitted ... to consider, sua sponte, the timeliness
of a state prisoner’s habeas petition.” Day u. McDonough, 547 U.S. at 209.
Before acting on its own initiative to dismiss a state prisoner’s habeas
petition as untimely, a federal district court must give the parties fair
notice and an opportunity to present their positions regarding the
timeliness issue. Id., at 210. In the statute of limitations context,
“dismissal is appropriate only if a complaint clearly shows the claim is
out of time.” Harris v. New York, 186 F.3d 243, 250 (2nd Cir. 1999); See
also Cooey v. Strickland, 479 F. 3d 412, 415—16 (6th Cir. 2007).
Petitioner argues in his petition that the one-year statute of
limitations does not apply to his case because his claims were not
adjudicated on the merits by the state courts. Petitioner also appears to
argue that any untimeliness should be excused because he only learned
at a later date that he had been re-sentenced to life in prison.
Accordingly, Petitioner has been given an opportunity to address the
limitations issue. See Plummer v. Warren, 463 F. App’x 501, 505 (6th Cir.
2012); see also Stewart v. Harry, No. 17-1494, 2017 WL 9249946, at * 1
(6th Cir. Nov. 21, 2017).

6

Case 5:20-CV-10744-JEL-EAS ECF No. 3, PagelD.82 Filed 11/09/20 Page 7 of 17

Petitioner’s direct appeal of his conviction ended when the
Michigan Supreme Court denied Petitioner leave to appeal on April 25,
1989. Petitioner’s conviction became final, for purposes of the AEDPA’s
limitations period, on the date that the 90-day time period for seeking
certiorari with the United States Supreme Court expired. See Jimenez v.
Quarterman, 555 U.S. 113, 119 (2009). Petitioner’s judgment therefore
became final on July 24, 1989, when he failed to file a petition for writ of
certiorari with the United States Supreme Court. Holloway, 166 F. Supp.
2d at 1188.
Because Petitioner’s conviction became final prior to the April 24,
1996 enactment date of the AEDPA, Petitioner had a one-year grace
period from this date to timely file a petition for habeas relief with the
federal court. See Israfil v. Russell, 276 F. 3d 768, 771 (6th Cir. 2001).
Absent state collateral review, Petitioner was required to file his petition
for writ of habeas corpus with this Court no later than April 24, 1997 in
order for the petition to be timely filed. See Corbin v. Straub, 156 F. Supp.
2d 833, 836 (E.D. Mich. 2001).
Petitioner filed a motion for relief from a void judgment pursuant
to Michigan Court Rule 2.612(C)(1)(d) with the trial court on October 3,
7

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.83 Filed 11/09/20 Page 8 of 17

2017. But Michigan Court Rule 2.612 applies to relief from judgment in
civil actions, not in criminal proceedings. Under Michigan Court Rule
6.501, “a judgment of conviction and sentence entered” ... in a criminal
case “may be reviewed only in accordance with the provisions” of Rule
6.500 et seq. And under Rule 6.500, the only provision is under Michigan
Court Rule 6.502, which provides for the filing of a post-conviction motion
for relief from judgment. Accordingly, Petitioner’s sole post-conviction
remedy to challenge his conviction was to file a motion for relief from
judgment pursuant to Michigan Court Rule 6.500, et. seq.
Moreover, Petitioner’s Michigan Court Rule 2.612 motion did not
toll or expand the statute of limitations. 28 U.S.C. § 2244(d)(2) expressly
provides that the time during which a properly filed application for state
post-conviction relief or other collateral review is pending shall not be
counted towards the period of limitations contained in the statute. An
application for state post-conviction relief is considered “properly filed,”
for purposes of triggering the tolling provisions of § 2244(d)(2), when “its
delivery and acceptance are in compliance with the applicable laws and
rules governing filings, e.g. requirements concerning the form of the
document, the court and office in which it must be lodged, payment of a
8

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.84 Filed 11/09/20 Page 9 of 17

filing fee, and applicable time limits upon its delivery.” Israfil v. Russell,
276 F. 3d 768, 771 (6th Cir. 2001). But as set forth above, Petitioner did
not file a motion under the proper court rule. Accordingly, Petitioner s
motion for relief from a void judgment filed under Michigan Court Rule
2.612 was not a properly filed post-conviction motion that would toll the
limitations period pursuant to 28 U.S.C. § 2244 (d)(2). See Rideaux v.
Perry, No. 16-1458, 2017 WL 3404658, at * 1 (6th Cir. Feb. 27, 2017).
Moreover, even if Petitioners motion for relief from a void judgment
constituted a properly filed post-conviction motion, it still would not toll
the limitations period because it was filed on October 3, 2017, long after
the one-year limitations period expired. A state-court post-conviction
motion that is filed following the expiration of the limitations period
cannot toll that period pursuant to 28 U.S.C. § 2244(d)(2) because there
is no period remaining to be tolled. See Jurado v. Burt, 337 F. 3d 638, 641
(6th Cir. 2003); see also Hargrove v. Brigano, 300 F. 3d 717, 718, n. 1 (6th
Cir. 2002).
Petitioner argues that he did not know that the trial judge re­
sentenced him to prison on September 4, 1987. Petitioner argues he did
not learn that he had been re-sentenced to life in prison “until he was
9

‘

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.85 Filed 11/09/20 Page 10 of 17

serving his sentence at Jackson Prison and received a Basic Information
Sheet outlining the matter.” (ECF No. 1, PagelD.6—7). Petitioner states
that, “It was not until I received my Basi[c] Information Sheet while
housed in Jackson Prison, that I discovered that I had been re­
sentenced.” (ECF No. 1, PagelD. 8). Petitioner later argues that it was
not until the judge denied his motion to vacate sentence on January 11,
2018 that he realized that his original sentence of 30-45 years remained
valid and the subsequent amended judgment of sentence of life in prison
was invalid. (ECF No. 1, PageID.24). In an affidavit that Petitioner
attached to his petition, he indicates that, “It was not until the modified
Judgment of Sentence prepared by Appellate Counsel and received by
Affiant while at the State Prison for Southern Michigan, that Affiant
learned that the hearing and the re-sentencing had even taken place.”
(ECF No. 1, PagelD. 53).
Under 28 U.S.C.§ 2244(d)(1)(D), AEDPA’s one-year limitations
period begins to run from the date upon which the factual predicate for a
claim could have been discovered through due diligence by the habeas
petitioner. See Ali v. Tennessee Board of Pardon and Paroles, 431 F. 3d
896, 898 (6th Cir. 2005). However, the time commences under §
10

Case 5:20-cv-10744-JEL-EAS ECF. No. 3, PagelD.86 Filed 11/09/20 Page if of 17
".>e

twr w, c. i a.fjiu.t-/

r *; i t.wu '-cv

i*. ui if

0

/

2244(d)(1)(D) when-the factual predicate for a.habeas petitioner’s claim
uuuu. a

a*.V*vUi\*

t\ u}.

jtc

7- •

i. c-\. /ooi. ou

uu. voui vi,

could have been discovered through the,exercise,of due diligence, not
viumlnx ju' '*> v i*w»cfw »’ 1 1 i'.u'J ns, uo<x (sir* *.u\
when atwas actually, discovered byn a. given. petitioner. Redmond v.
t t^viuiui^er i<

iuwDi^

14- iii\"

\t £ ^ J

'■*> u«s*t/

uao

z tu luiua;

Jackson, 295 F. Supp 2d 767, 771 (E.D. Mich. 2003). Moreover, the time

OJ. Vi Vi. LUlllluUuiu* PCI'XUU u« V 3l?

U

M - IfVV JUl>V4UtfU

V-rJu.ll* WlUX

under the AEDPA’s„limitations period, hegins^ to ,run pursuant, to .§

jxuajj

ulitwri iv.y a* tu-ufS v ie vj-uArv* ir —.1 »i«? Ulj wm6u Ciit: it*v -. w<ia p-n Ulwui-

2244(d)(1)(D) when a habeas petitioner knows, or through due diligence,
m.\i

i*X- W*£u£* u*u*v nv mu i-*•'<

uy .c-tU'i^iKvU, u« x Uwv'a uv

f

could have
discovered, the important facts for their claims, not when the
yyliv uu uiuiu vK.v iiav^. 40 uiui a u seen. ujUb uiju-uianuu uwvtj

u.vjji-tiii

petitionerrecognizes
1 the3facts’ legal,significance. ,/cL In. addition,. “§
. t cu. 9 *.t
viuj.ii.* xtsuu w TK 4 - -U_ • - «. * v'ovuuufth viit: vibe*-# v/ix vvaUC*.
2244(d)(1)(D)
does motf convey
a statutory righLto an
extended delay
’.u
pfeuxuaU u/
v vU-ur v ■
u Cvuju '*.u»-e wo.*

/

while a petitioner gathers,every possible scrap of evidence that might
tuo*.vVt?»,5u CJLUv-ugfi «UC
\

l

i'*t

uuu uuu*j, *.
C

support(his
claim.” Redmond,
295
F. Supp. 2d at.771. “Rather,,it isVythe
^AVivit mA Aii'cti»
wuiucu u*
a -muiv „ wm». utxv jO-hui
tin
i

actual or putative
knowledge of the pertinent facts of a claim that starts
ur>i JY
t I'U Cviuv'iiv J ,/ii .V.-IJ Y*<.. JJVJ U HXJ * UJ V. U1» •UV’AJV-tMJV VV V* VJiO

?
r

the clock running on the
,date on which the
factual predicate of the.*•claim
MUi'lUU*
' 'I 1 ’• l/l*’ -v, ijl V •
*>dU,

OUW'jrrvU

could have
been discovered
through due diligence, and the running of the
yvivO v*u«
iiuc vui i , i• j v .4 t-a v>x- t w vuu “uw '»i
u*u
limitations,,period
does not await >the . collection
of -evidence-* i.whichf
uCLift1 iOl <un wtUHii w« 4.U
ua?c
u

Atf’'-vuai

/•
\
e

supports,the facts,.including supporting affidavits.’’ Id. at p. 772. Lastly,
il4~

C44 £l4«.JCfcl4.

VC»

V.-.-fJ

-

O.

U.J.'J.

* yuw

JT .

*

-U

V' ■ '-*Jl

.

newly
discovered,
information £-that,
merely
.supports or strengthens a
v« ’ Wjv’Oim
A'.
4’
»a—<Jt. - claim Aithat
could have been properly,stated without the.discoverynictv
... is not
(UiV i,juu4 v. ii ...i4-viuca < aai uw
a‘factual predicate’for purposes
of.
triggering .the.
statute of «».
limitations
VU .4
'i uu
178
I*l»

r: p|JCMatA. .UUUvV;

11

4 *>

t

Case 5:20-cv-10744-JEL-EAS ECF No. 3, Pa^eiD.88 Filed 11/09/20 Page 13 of 17

to Petitioner in prison. To the extent that Petitioner was aware of the
factual predicate of the re-sentencing at the time of his direct appeal, the
commencement of the running of the statute of limitations would not be
delayed pursuant to 28 U.S.C.§ 2244(d)(1)(D). See Fleming v. Evans, 481
F.3d 1249, 1258 (10th Cir. 2007); Trice v. Hulick, 558 F. Supp. 2d 818,
824—25 (N.D. Ill. 2008). The petition is therefore untimely.
Petitioner further argues that AEDPA’s statute of limitations does
bar review of his claims because the state courts never adjudicated his
claims on the merits. (ECF No. 1, PagelD. 24). Setting aside the fact that
Petitioner’s claims did appear to be adjudicated on the merits, at least by
the trial court, a state court’s failure to adjudicate a habeas petitioner’s
claims on the merits is not a basis for a federal court to ignore the oneyear statute of limitations contained in 28 U.S.C.§ 2244(d). See DeWild
v. Raemisch, 750 F. App’x. 703, 705 (10th Cir. 2018). Accordingly, this
argument is without merit.
AEDPA’s statute of limitations “is subject to equitable tolling in
appropriate cases.” Holland v. Florida, 560 U.S. 631, 645 (2010). A
habeas petitioner is entitled to equitable tolling “only if he shows ‘(1) that
he has been pursuing his rights diligently, and (2) that some
13

Case 5:20-cv-10744-JEL-EAS ^CF N<5. 3,- P&lfeiD.8§ Filed 11/09/20 Page 14 of 17

extraordinary circumstance stood in his way”’ and prevented the timely
filing of the habeas petition. Id. at 649 {quoting Pace v. DiGuglielmo, 544
U.S. 408, 418 (2005)). The Sixth Circuit has observed that “the doctrine
of equitable tolling is used sparingly by federal courts.” See Robertson v.
Simpson, 624 F. 3d 781, 784 (6th Cir. 2010). The burden is on the habeas
petitioner to show that they are entitled to the equitable tolling of the
one-year limitations period. Id.
Here, Petitioner is not entitled to equitable tolling of the one-year
limitations period because he failed to argue or show facts to support
equitable tolling. See Giles v. Wolfenbarger, 239 F. App’x. 145, 147 (6th
Cir. 2007). First, the one-year statute of limitations may be equitably
tolled based upon a credible showing of actual innocence under the
standard enunciated in Schup v. Delo, 513 U.S. 298 (1995). McQuiggin v.
Perkins, 569 U.S. 383, 386 (2013). The Supreme Court has cautioned that
“tenable actual-innocence gateway pleas are rare[.]” Id. “[A] petitioner
does not meet the threshold requirement unless he persuades the district
court that, in light of the new evidence, no juror, acting reasonably, would
have voted to find him guilty beyond a reasonable doubt.” Id. (quoting
Schlup, 513 U.S., at 329). For an actual innocence exception to be credible
14

Case 5:20-cv-10744-JEL-EAS ECF No: 3, PdfcjelD.90 Filed 11/09/20 Page 15 of 17

under Schlup, such a claim requires a habeas petitioner to support their
allegations of constitutional error “with new reliable evidence-whether
it be exculpatory scientific evidence, trustworthy eyewitness accounts, or
critical physical evidence-that was not presented at trial.” Schlup, 513
U.S. at 324. Petitioner’s case falls outside of the actual innocence tolling
exception because he presented no new, reliable evidence to establish
that he was actually innocent of the crime charged. See Ross v. Berghuis,
417 F. 3d 552, 556 (6th Cir. 2005). Any actual innocence exception to
AEDPA’s statute of limitations is particularly inapplicable, in light of the
fact that the petitioner pleaded guilty. See Reeves v. Cason, 380 F. Supp.
2d 883, 885 (E.D. Mich. 2005).
III.

Certificate of Appealability
Petitioner is required to obtain a certificate of appealability (“COA”)

in order to appeal the Court’s decision. See 28 U.S.C. § 2253(c)(1)(a); Fed.
R. App. P. 22(b). A COA may issue “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2).
When a court evaluates relief on the merits, the substantial
showing threshold is met if the petitioner demonstrates that reasonable
15

Case 5:20-cv-10744-JEL-EAS ECF H6. 3, P&gelD.91 Filed 11/09/20 Page 16 of 17

jurists would find the Court’s assessment of the claim debatable or
wrong. Slack v. McDaniel, 529 U.S. 473, 484—85 (2000). “A petitioner
satisfies this standard by demonstrating that ... jurists could conclude
the issues presented are adequate to deserve encouragement to proceed
further.” MiUer-El v. Cockrell, 537 U.S. 322, 327 (2003). Having
conducted the requisite review, the Court concludes that reasonable
jurists would not debate the correctness of the Court’s ruling. Therefore,
a COA is denied.
An appeal from this decision cannot be taken in good faith. See Fed.
R. App. P. 24(a). Accordingly, the Court denies Petitioner leave to proceed
in forma pauperis on appeal. See 28 U.S.C. § 1915(a)(3).
IV. Conclusion and Order
For the reasons set forth above, the petition is DENIED AND
DISMISSED WITH PREJUDICE and a certificate of appealability is
DENIED. Petitioner is DENIED leave to appeal in forma pauperis on
appeal.
IT IS SO ORDERED.
s/Judith E. Lew
JUDITH E. LEVY
United States District Judge

Dated: November 9, 2020
Ann Arbor, Michigan

16

\

Case 5:20-cv-10744-JEL-EAS ECF No. 3, PagelD.92 Filed 11/09/20 Page 17 of 17

CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served
upon counsel of record and any unrepresented parties via the Court’s
ECF System to their respective email or First Class U.S. mail addresses
disclosed on the Notice of Electronic Filing on November 9, 2020.
s/William Barkholz
Case Manager

17

Case 5:20-cv-10744-JEL-EAS ECF No. 4, PagelD.93 Filed 11/09/20 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

Eric Miguel Dowdy,
Case No. 20-10744

Petitioner,

Judith E. Levy
United States District Judge

v.
Shane Jackson,
Respondent.

JUDGMENT
For the reasons stated in the opinion and order entered on today’s
date, it is ordered and adjudged that the case is dismissed with prejudice.
DAVID J. WEAVER
CLERK OF THE COURT
By:

a/William Barkholz
DEPUTY COURT CLERK

Date: November 9, 2020
APPROVED:
s/Judith E. Lew
JUDITH E. LEVY
UNITED STATES DISTRICT JUDGE

appendix f

No. 20-2177
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
^

FILED
ERIC MIGUEL DOWDY,
Petitioner-Appellant,
v.
SHANE JACKSON, Warden,

)
)
)
)
)
)
)
)

May 06, 2021
DEBORAH S. HUNT, Clerk

ORDER

Respondent-AppelJ ee.

Before: COOK, Circuit Judge.
Eric Miguel Dowdy, a Michigan prisoner proceeding pro se, appeals the district court’s
summary denial of his 28 U.S.C. § 2254 petition for a writ of habeas corpus as untimely. This
court construes Dowdy’s timely notice of appeal as an application for a certificate of appealability
(COA). See Fed. R. App. P. 22(b)(2). Dowdy also moves this court to proceed in forma pauperis.
In 1987, Dowdy pleaded guilty in two separate cases to two counts of second-degree
murder and two counts of being a felon in possession of a firearm. People v. Dowdy, Nos. 86006219, 86-006250 (Wayne Cnty. Cir. Ct.). The trial court sentenced him to concurrent terms of
thirty to forty-five years for the murder convictions, to be served consecutively to a two-year term
for the felony-firearm convictions. The Michigan Court of Appeals affirmed the trial court’s
judgment, People v. Dowdy, No. 104359 (Mich. Ct. App. Oct. 13, 1988), and, on April 25, 1989,
the Michigan Supreme Court denied leave to appeal, People v. Dowdy, No. 84502 (Mich. Apr. 25,
1989).
During the pendency of Dowdy’s direct appeal, appellate counsel filed amotion for Dowdy
to be resentenced to a parolable life sentence in case number 86-006219, in accordance with the
plea agreement. On September 4, 1987, Dowdy was resentenced to a parolable life sentence.

APPENDIX G

No. 20-2177
-2On October 3,2017, Dowdy filed a motion for relief from judgment, pursuant to Michigan
Court Rule 2.612(C)(1)(d), arguing that he was resentenced without subject-matter jurisdiction
and that he received ineffective assistance of counsel. The trial court construed Dowdy’s motion
as a post-conviction motion for relief from judgment under Michigan Court Rule 6.500, et seq.,
and denied relief. The Michigan Court of Appeals denied Dowdy’s delayed application for leave
to appeal, and the Michigan Supreme Court denied leave to appeal. People v. Dowdy, 933 N.W.2d
504 (Mich. 2019) (mem.).
In March 2020, Dowdy filed a § 2254 petition in the district court, raising the following
grounds for relief: (1) his “liberty was taken in a manner inconsistent with due process”; (2) he
was “denied a fair trial... when the trial court—lacking subject matter jurisdiction—re-sentenced
[him]—the result of which is null and void”; (3) “trial counsel’s legal representation was
tantamount to abandonment”; (4) “court appointed appellate counsel abandoned legal
representation of [him] on his only appeals as of right”; and (5) the prosecution allowed the trial
court to amend the sentence knowing that it lacked jurisdiction to do so. Dowdy argued that,
although his petition was “filed at this late date,” it is not time-barred because “the [s]tate [cjourts
did not rule on the issue presented.” He further contended that, because his petition challenged a
“radical jurisdictional defect,” it was not subject to any time limit. In an attached affidavit, Dowdy
stated, “It was not until the modified Judgment of Sentence prepared by Appellate Counsel . . .
was received by Affiant while at the State Prison of Southern Michigan^ that Affiant learned that
the hearing and re-sentencing had even taken place.” His petition also asserted that “[i]t was not
until [he] received [his] Basic Information Sheet while housed in Jackson Prison[] that [he]
discovered that [he] had been re-sentenced.”
Pursuant to Rule 4 of the Rules Governing § 2254 Cases in the United States District
Courts, the district court conducted an initial review of the petition and concluded that it was barred
by the one-year statute of limitations set forth in the Antiterrorism and Effective Death Penalty
Act (“AEDPA”). See 28 U.S.C. § 2244(d). The court denied the petition and declined to issue a
COA.

No. 20-2177
-3To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

To satisfy this standard, a petitioner must

demonstrate “that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). When the
district court denies a habeas petition on a procedural ground without reaching the underlying
constitutional claims, a COA should issue when the petitioner demonstrates “that jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling:” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Rule 4 of the Rules Governing § 2254 Cases provides, in pertinent part;
If it plainly appears from the petition and any attached exhibits that the petitioner
is not entitled to relief in the district court, the judge must dismiss the petition and
direct the clerk to notify the petitioner. If the petition is not dismissed, the judge
must order the respondent to file an answer, motion, or other response within a
fixed time, or to take other action the judge may order.
A district court is authorized to consider sua sponte the timeliness of a prisoner’s § 2254 petition,
provided it affords the parties fair notice and an opportunity to be heard on the issue. Day v.
McDonough, 547 U.S. 198, 209-10 (2006); see Shelton v. United States, 800 F.3d 292, 294 (6th
Cir. 2015). Here, Dowdy addressed the time-bar issue in his petition, acknowledging that it was
late and arguing that it should be deemed timely based on when he learned that he had been
resentenced. The district court’s sua sponte consideration of the time-bar issue was therefore not
improper. See Stewart v. Harry, No. 17-1494, 2017 WL 9249946, at *1 (6th Cir. Nov. 21, 2017).
On April 24, 1996, AEDPA became effective. The statute amended 28 U.S.C. § 2244 to
impose a one-year statute of limitations on federal habeas petitions brought by prisoners
challenging state court judgments. See 28 U.S.C. § 2244(d)(1). The statute also provides for
tolling of the limitations period while “a properly filed application for State post-conviction or
other collateral review with respect to the pertinent judgment or claim is pending.” 28 U.S.C.

No. 20-2177
-4-

§ 2244(d)(2). The tolling affects only an unexpired period of limitations; it cannot revive a period
that has already run. Vroman v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003).
Reasonable jurists would not debate the district court’s determination that Dowdy’s §2254
petition was untimely. Dowdy’s conviction became fmal in 1989, but prisoners whose convictions
became final before the AEDPA’s effective date were given a one-year grace period in which to
file their petitions. See McClendon v. Sherman, 329 F.3d 490, 493 (6th Cir. 2003); see also Cook
v. Stegall, 295 F.3d 517, 519 (6th Cir. 2002); Payton v. Brigano, 256 F.3d 405,408 (6th Cir. 2001).

Dowdy therefore had until April 24, 1997, to file a § 2254 petition. And because the one-year
limitations period had already expired by the time Dowdy filed his state post-conviction motion in
2017, that motion—assuming it was “properly filed”—had no tolling effect. See Vroman, 346
F.3d at 602.
Because Dowdy argued that he did not learn that he had been resentenced until a later date,
the district court considered whether he was entitled to a later start of the limitations period under
§ 2244(d)(1)(D), which delays the start of the limitations period to the date on which the factual
predicate of a claim could have been discovered through the exercise of due diligence. Dowdy
asserted that he did not discover the factual predicate for his claims until he learned that he had
been resentenced. At one point he stated that he did not discover this until appellate counsel
provided him with the modified judgment of sentence, and at another point he claimed not to have
been aware of the resentencing until he received a “Basic Information Sheet while housed in
Jackson Prison.” Dowdy never indicated when he received these documents, however. And, as
the district court noted, Dowdy’s assertion that he learned about the resentencing when appellate
counsel provided him with the modified judgment suggests that this took place while his direct
appeal was pending. If so, this would have no bearing on the start of the limitations period.
Moreover, Dowdy failed to demonstrate that he was unable to discover information concerning his
resentencing any earlier through the exercise of due diligence. Reasonable jurists would not
disagree that Dowdy failed to meet his burden of showing that his resentencing was newly
discovered evidence that delayed the commencement of the statute of limitations. See DiCenzi v.

No. 20-2177
-5Rose, 452 F.3d 465, 471 (6th Cir. 2006) (*“[T]he petitioner bears the burden of proving that he
exercised due diligence, in order for the statute of limitations to begin running from the date he
discovered the factual predicate of his claim ....”).
Dowdy also argued that AEDPA’s statute of limitations does not bar review of his claims
because they raised a jurisdictional defect. He cited no authority to support this argument, and
indeed there is none. See McMillan v. Woods, No. 2:1 l-CV-10390,2011 WL 6937364, at *3 (E.D.
Mich. Dec. 8, 2011); see also Briscoe v. Eppinger, No. 18-3041, 2018 WL 3390141, at *2 (6th
Cir. May 31, 2018) (order denying COA). Dowdy further contended that the statute of limitations
does not bar his claims because the state, courts never ruled on them. But even if true, this has no
bearing on whether the statute of limitations applies to his § 2254 petition. See DeWild v.
Raemisch, 750 F. App’x 703, 705 (10th Cir. 2018).
Finally, the district court considered whether Dowdy was entitled to equitable tolling of
the statute of limitations. “[A] ‘petitioner’ is ‘entitled to equitable tolling’ only if he shows ‘(1) that
he has been pursuing his rights diligently, and (2) that some extraordinary circumstance stood in
his way’ and prevented timely filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (quoting
Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). A credible showing of actual innocence may
also allow a habeas petitioner to overcome AEDPA’s limitations period. McQuiggin v. Perkins,
569 U.S. 383, 386 (2013).

Reasonable jurists would not disagree with the district court’s

determination that Dowdy failed to argue or show facts to support equitable tolling.
Accordingly, Dowdy’s application for a COA is DENIED, and his motion to proceed in
forma pauperis is DENIED as moot.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-2177
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

ERIC MIGUEL DOWDY,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant:
v.
SHANE JACKSON, WARDEN,
Respondent-Appellee.

FILED
Jun 17, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: ROGERS, LARSEN, and READLER, Circuit Judges.
Eric Miguel Dowdy, a Michigan prisoner, petitions the court to rehear en banc its order
denying him a certificate of appealability. The petition has been referred to this panel, on which
the original deciding judge does not sit, for an initial determination on the merits of the petition for
rehearing. Upon careful consideration, the panel concludes that the original deciding judge did
not misapprehend or overlook any point of law or fact in issuing the order and, accordingly,
declines to rehear the matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX H

No. 20-2177
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

ERIC MIGUEL DOWDY,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
SHANE JACKSON, WARDEN
Respondent-Appellee.

FILED
Jul 02, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: ROGERS, LARSEN, and READLER, Circuit Judges.
Eric Miguel Dowdy petitions for rehearing en banc of this court’s order entered on May 6,
2021, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
pane! issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX I

